No.

IN THE

Supreme Court of the United States

MAXIMA ACUNA-ATALAYA, DANIEL CHAUPE-ACUNA, JILDA CHAUPE-
ACUNA, CARLOS CHAUPE-ACUNA, YSIDORA CHAUPE-ACUNA, ELIAS
CHAVEZ-RODRIGUEZ, MARIBEL HIL-BRIONES.
Petitioners,

¥.
NEWMONT MINING CORPORATION, NEWMONT SECOND CAPITAL
CORPORATION, NEWMONT USA LIMITED, AND NEWMONT PERU LIMITED,
Respondents.

CERTIFICATE OF COMPLIANCE

Thereby certify that I am a member in good standing of the bar of this Court
and that, pursuant to Rule 33.1(h) of the Rules of this Court, the Petition for a Writ
of Certiorari complies with the type-volume limitations of Rule 33.1(g). Exclusive of
the exempted portions identified in Rule 33.1(d), the brief contains 8,999 words.
(The undersigned is relying on the word-count utility in Microsoft Word 2013, the
word-processing system used to prepare the brief, consistent with Rule 33.1(d).)

July 8, 2021 Shad 9 Hi

Richard L. Herz
